       ADVISORY REPORT

        COSTS CLAIMED BY THE
         STATE OF OKLAHOMA,
      DEPARTMENT OF WILDLIFE
  CONSERVATION, UNDER FEDERAL
         AID GRANTS FROM THE
   U.S. FISH AND WILDLIFE SERVICE
  FROM JULY 1, 1996 TO JUNE 30, 1998




September 2002     Report No. 2002-E-0012
                                                                   X-GR-FWS-0027-2002
            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240



                                                                        September 9, 2002


                             ADVISORY REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Oklahoma,
           Department of Wildlife Conservation, Under Federal Aid Grants from the
           U.S. Fish and Wildlife Service from July 1, 1996 through June 30, 1998
           (No. 2002-E-0012)

                                    Introduction
       This report presents the results of our performance of procedures to review
another audit agency’s work related to costs claimed by the State of Oklahoma
Department of Wildlife Conservation (Department) under Federal Aid grants from the
U.S. Fish and Wildlife Service (FWS) for the period July 1, 1996 to June 30, 1998.

Background and Scope
         The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777) authorize FWS to
provide Federal Aid grants to the states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs
incurred under the grants. Additionally, the Acts specify that state hunting and fishing
license revenues cannot to be used for any purpose other than the administration of the
state’s fish and game agencies. In addition, FWS provides grants to the states under the
Clean Vessel Act and the Endangered Species Act.

        In August 2001, another audit agency issued a draft report entitled “Audit of
Oklahoma Federal Aid Program Grants and Payments Awarded by the U.S. Fish and
Wildlife Service, Division of Federal Aid, Fiscal Years 1997 and 1998.” The scope of its
audit work, as stated in the announcement letter to the Department, was to evaluate
(1) the adequacy of the Department’s accounting system and related internal controls as
they pertain to the FWS Federal Aid grant agreements; (2) the adequacy and reliability of
the Department’s license fees collection and disbursement system; (3) the adequacy of
the Department’s accounting system as it relates to the accumulation and reporting of
costs charged to grants; and (4) the adequacy and eligibility of direct costs claimed on
grants. The audit was also to include an analysis of other issues considered to be
sensitive and/or significant to the FWS. The audit work at the Department covered
$32 million in FWS grants that were open during the Department’s fiscal years ended
June 30, 1997 and 1998 (see Appendix 1). The Department submitted its response to the
draft report in December 2001. However, the audit agency’s agreement with FWS
expired prior to receipt of the response and the issuance of a final report.

        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with FWS. The FWS did not renew or extend
its agreement with the audit agency. At the time of expiration, final audit reports on
several uncompleted audits had not been issued and the audits were in various stages of
the audit and reporting processes. The audit agency indicated in a September 20, 2001
memorandum that although the supervisory and management reviews of the Oklahoma
draft report had been completed, the audit assignment was considered incomplete because
the Department’s response had not been received and therefore a draft final report had not
been prepared and the supervisory and management reviews of the supporting working
papers had not been completed.

        On September 20, 2001, FWS and the Office of Inspector General (OIG) entered
into an Intra-Departmental Agreement under which FWS requested OIG to (1) review the
audit work performed by the audit agency including its working papers, summaries, and
draft reports for these audits and (2) issue reports on the findings that were supported by
the working papers. Accordingly, our review was limited to performing the agreed-upon
procedures set forth in the Agreement and the conclusions presented in the report are
limited to the findings substantiated by the working papers. We did not perform any
additional audit work of the Department’s records and the limited work performed under
these procedures does not constitute an audit by the OIG in accordance with Generally
Accepted Government Auditing Standards.

        Major issues impacting Oklahoma’s administration of the Federal Aid program
are presented in the body of the report and other management issues are presented in
Appendix 3. In addition, we have included in Appendix 4 a list of all findings included in
the draft report, along with the results of our own corresponding analysis.




                                             2
                                Results of Review
       The results of our review of the audit agency’s working papers disclosed the
following:

   •   The Department needs to obtain a refund of $330,705 from the State for excess
       employee health insurance payments, of which $104,828 should be used to reduce
       the costs charged to Federal Aid grants and $225,877 should be deposited into the
       license fee fund (Fund 200).

   •   The Department did not report revenues totaling $1,610,935 that it received from
       grazing leases ($526,659), agricultural leases ($595,523), oil and gas production
       ($235,275), oil and gas damage assessments ($49,769), oil and gas leases ($750),
       timber sales ($199,809), and communication tower leases ($3,150).

   •   The eligibility for reimbursement of costs totaling $633,000 was questioned,
       representing subgrantee costs incurred outside the grant period ($337,393), State
       matching costs that were also used to match other Federal grants ($206,000),
       Department costs incurred outside the grant period ($82,483), and miscellaneous
       unallowable costs ($7,124).

   •   The Department’s accounting system was not adequate for accumulating and
       reporting the use of license fee revenues.

   •   The Department did not comply with certain grant requirements regarding
       performance reports, grant amendments, and program income.

   •   The Department did not have adequate policies and procedures to ensure proper
       identification, accumulation, and reporting of eligible costs for in-kind
       contributions.

A. Use of Hunting and Fishing License Revenues
        The State & Education Employees Group Insurance Board administered a self-
insurance fund to pay for Oklahoma employees’ health and medical costs. In fiscal year
1997, $31.5 million of insurance premiums that had been paid by the State on behalf of
its employees were transferred out of the fund to the State Regents for Higher Education.
Included in the transfer was $330,705 of premium payments made on behalf of
Department employees that was initially funded with license revenues. Subsequently
$104,828 of this amount, which was related to employees working on Federal Aid grants,
was reimbursed to the Department by FWS. In accordance with the provisions of Office
of Management and Budget (OMB) Circular A-87, contributions to a reserve for certain
self-insurance programs are allowable. However, the transfer of some of the reserve
funds to the State Regents for Higher Education was contrary to Attachment B, Paragraph
25.d.(5) of OMB Circular A-87, which states that whenever funds are transferred from a


                                            3
self-insurance reserve to other accounts (e.g. general fund), refunds shall be made to the
Federal Government for its share of funds transferred, including earned or imputed
interest from the date of transfer.

        Furthermore, the transfer of insurance premiums resulted in a diversion of license
revenue because the Department’s contribution of $225,877 ($330,705 - $104,828 =
$225,877) was funded using license fee revenue. In this regard, the Code of Federal
Regulations (50 CFR 80.4) states, “Revenues from license fees paid by hunters and
fishermen shall not be diverted to purposes other than administration of the State fish and
wildlife agency.”

        The draft report recommended that the Office of State Finance reimburse the
Department $330,705, and that the Department should reimburse the FWS $104,828 for
the health insurance premiums that were paid under the Federal Aid grants in fiscal year
1997. We have classified the $104,828 as a questioned cost; however, there was
insufficient information in the working papers to identify the individual grants to which
the $104,828 was charged.

Department’s Response

        The Department agreed with the recommendation, but stated that the Oklahoma
Office of Attorney General advised the Department that this issue was in litigation and
that no action should be taken until the lawsuit is settled. The Department proposed to
demand reimbursement of the $330,705 paid when the lawsuit is settled. In addition, the
Department proposed to offset the amount due the FWS by removing one-half of the
costs from those incurred under grant F-43-D-11 and one-half of the costs from those
incurred under grant W-138-M-12. The Department stated that since it incurred more
than the amount necessary to justify the reimbursements received from the FWS under
these two grants even after removing the $104,828 from them, no reimbursement to FWS
would be necessary.

Office of Inspector General Comments

         We do not agree with the proposed resolution regarding the
$104,828 reimbursement. To properly resolve this matter, the Department should
identify the grants to which the questioned health insurance premiums were charged and
determine whether those grants had excess allowable costs that were reported on the
Financial Status Reports, SF-269s. FWS may then determine whether the excess
allowable costs for each grant may be used to offset the portion of the $104,828 allocable
to that grant. Any remaining portion of the $104,828 should be reimbursed to FWS. The
Department’s proposed resolution to use excess allowable costs from grants F-43-D-11
and W-138-M-12 to offset the $104,828 would be contrary to Attachment B, Section 42
of OMB Circular A-87, which states, “Any excess costs over the Federal contribution
under one award agreement are unallowable under other award agreements.” Regarding
the Oklahoma Attorney General’s position that no action should be taken until the lawsuit
is settled, we suggest that FWS consult the Solicitors Office for guidance.



                                             4
Recommendation

We recommend that the FWS:

       1. Resolve the $330,705 in health insurance premiums diverted to the State
Regents for Higher Education, which includes the $104,828 in questioned costs for health
insurance premiums related to the Federal Aid grants. The resolution should include
advice from the Solicitor’s Office regarding whether to wait for any lawsuits to be settled
regarding recovery of the insurance premiums paid from license fee funds that were
diverted to the Regents for Higher Education.

B. Program Income and Income from the Sale of Real Property
        During fiscal years 1997 and 1998, the Department received income totaling
$1,610,935 that it did not properly report or credit to the grant-supported activity that
generated the income as required by the provisions of the Code of Federal Regulations
(43 CFR 12.65(b)) and (43 CFR 12.71(g)).1 The income was generated from various
activities on lands acquired by the Department with Federal Aid grant funds and/or
license fee revenues The potential unreported income by year by income type is
summarized below and further details are provided in Appendix 2:

                                         Unreported Income
                Income Type                       FY 1997             FY 1998              Total
    Grazing                                        $243,439            $283,220           $526,659
    Agriculture Leases                              276,641             318,882             595,523
    Oil & Gas Production                            125,206             110,069             235,275
    Oil & Gas Damage                                 22,596              27,173              49,769
    Oil & Gas Lease                                       0                 750                 750
    Timber Sales                                      2,399             197,410             199,809
    Communication Tower Leases                            0               3,150               3,150
           Total                                   $670,281            $940,654          $1,610,935

      The income was generated from lands, designated as wildlife management areas
(WMAs), which the Department managed with Federal Aid grants. Each year, the
Department received FWS grants for, among other things, the operation and maintenance,

        1
           The Code of Federal Regulations identify two types of grant-related income: program income
and income from the sale of real property. The Code (43 CFR 12.65(b)) define program income as “gross
income received by the grantee or subgrantee directly generated by a grant supported activity, or earned
only as a result of the grant agreement during the grant period.” Also, the Code (43 CFR 12.65(g)(1)) state
that, “Ordinarily program income shall be deducted from total allowable costs to determine the net
allowable costs.” Regarding the disposal of real property, the Code (43 CFR 12.71) require that the grantee
request disposition instructions from the awarding agency.



                                                    5
habitat development, and habitat management of these WMAs. These grants covered all
WMAs without regard to whether the original acquisition of the WMAs was funded with
license fees, Federal Aid, or other funds. The WMA grant agreements specifically
identified grazing and agricultural leases as grant-supported activities. The WMA
agreements also estimated program income from mineral production and leasing and
stated that such income would be “deducted from total project costs.” However, no
mention of the other types of revenue was made in the WMA grant agreements.

        In practice, revenues from grazing, oil and gas exploration and production, timber
harvesting, and communication tower activities generated from lands acquired with
Federal Aid funds were credited against grant costs. The Department, however, did not
credit WMA grant costs with revenue it received from activities that took place on lands
acquired with license fees. Furthermore, the Department did not credit grant costs with
any revenue from agricultural activities, regardless of the funding source for the land
acquisition.

        It appears that the revenue generated from the activities described above
represents program income as defined by 43 CFR 12.65 for the following reasons:
(1) the revenue was generated by a grant-supported activity, namely the operation and
maintenance of the wildlife management areas; (2) the revenues were earned during the
grant period, with the FWS issuing a new grant to the Department for the same general
activities each year; and (3) the grants covered lands acquired with either grant funds or
with license fees.2

        The draft report recommended that the Department compensate the FWS for the
Federal share of the unreported program income related to grazing, oil and gas damage,
oil and gas leasing, agricultural leases, and communication tower leasing. The draft
report did not recommend that the Department compensate the FWS for income from
timber sales because FWS had provided guidance indicating that timber sales constituted
the sale of real property. The draft report did not recommend that the Department
compensate the FWS for income from oil and gas production because Federal Aid funds
were not used to purchase the lands from which the oil and gas was produced.

        The draft report also recommended that the Department develop and implement
written policies, procedures, and accounting controls that clearly denote the difference
between revenue from the sale of real property subject to the provisions of 43 CFR 12.71
and revenue from grant supported activities (program income) which is subject to the
provisions of 43 CFR 12.65. Regarding the revenue generated from activities other than
timber sales, we suggest that the FWS consult the Solicitor’s Office for advice on what
revenue should be considered program income and what should be considered the sale of
real property.


2
  On June 6, 2002, the Director, FWS, issued a policy memorandum to his Regional Directors clarifying
that revenue from timber sales on Federal Aid lands was program income. This was based on a December
5, 2000, Solicitor’s Opinion on whether timber was real or personal property. No policy has been issued on
the other types of revenue.


                                                    6
Department’s Response

        The Department disagreed with the recommendation with respect to grazing and
agricultural leases, stating that the Department administered these leases from its
headquarters office and that none of these costs were charged to the FWS grants.
Although the Department acknowledged that field personnel did check on these leases
occasionally, it stated that the monitoring was incidental to their primary wildlife
management duties. The Department also stated that only 11 per cent of the acreage that
it managed was acquired with Federal Aid funds. The Department concluded that the
revenue did not fit the definition of program income contained in 43 CFR 12.65(b)
because the revenue was not generated directly from a grant-supported activity during the
grant period. The Department also disagreed with the recommendation with respect to
income from communication tower leases, oil and gas damage, and oil and gas leases,
stating that the income was from properties not acquired with Federal Aid funds.

Office of Inspector General Comments

        Federal Aid grant funds were used to manage the lands that generated this income
and the grant agreements specifically identified grazing and agricultural leases as grant-
supported activities. Although the other revenue-generating activities were not
specifically identified in the agreements and the amount of time spent by employees at
the sites that was related to these activities could not be determined, it seems likely that
field employees spent some time monitoring these activities to ensure that they were
being conducted properly. In addition, the Department applied its indirect cost rate to the
direct costs of these grants; thus, a portion of the costs of the Department’s headquarters
staff (which administered the leases) was funded by the wildlife management area
Federal Aid grants.

Recommendation

We recommend that the Regional Director:

        1. Resolve the issue of the $1,610,935 of unreported program income and income
from the sale of real property. The resolution should follow the advice obtained from the
Solicitor’s Office regarding whether the income types listed above are program income or
income from the sale of real property.

       2. Ensure that the Department has developed and implemented written policies,
procedures, and accounting controls that clearly denote the difference between revenue
from the sale of real property and revenue from grant-supported activities (program
income) and that these revenues are properly reported.




                                             7
C. Questioned Costs

       The eligibility for reimbursement of costs totaling $633,000 (Federal share) was
questioned, representing subgrantee costs incurred outside the grant period ($337,393),
State matching costs that were also used to match other Federal grants ($206,000),
Department costs incurred outside the grant period ($82,483), and miscellaneous
unallowable costs ($7,124).

1. Out-of-Period Subgrantee Costs. Costs totaling $339,226 (Federal share) were
questioned in the draft report because the costs were incurred prior to the time period
covered by the grant agreement segment to which the costs were charged. We adjusted
the amount to $337,393 based on our review of the working papers. The Code of Federal
Regulations (50 CFR 80.15(b)), Allowable Costs states, “Costs incurred prior to the
effective date of the project agreement are allowable only when specifically provided for
in project agreement.” The following costs were incurred prior to the inception of the
grant agreement segments to which the costs were charged:

                                                     Total            Federal
            Grant Number and Location              Questioned          Share
         F-45-D-11
            Carter Lake                                 $4,345           $3,259
            Lake Konawa                                 73,646           55,235
            Lake Davenport                              15,799           11,849
                                                       $93,790          $70,343
         F-45-D-12
            Boomer Lake                                $40,332          $30,249

         F-45-D-13
            Lake Taylor boat ramp                      $33,318          $22,500
            Lake Pawhuska                               87,439           65,579
            Lake Taylor signs                              400              300
                                                      $121,157          $88,379
         F-44-D-13
            Pretty Water Lake                          $49,494         $28,272
            Lakes Duncan & Humphries                   160,200         120,150
                                                      $209,694        $148,422
                Total Questioned Costs                $464,973        $337,393

        The Department entered into cooperative agreements with local municipalities in
which the municipalities agreed to install, develop, and maintain facilities such as boat
docks, boat ramps, restrooms, and piers on lakes that were owned by the municipalities.
In return, the Department would provide these subgrantees with Sport Fish Restoration
funds to cover a portion of the work. Subgrantees billed the Department, the Department


                                            8
reimbursed the subgrantees, and in return, the Department received reimbursement from
FWS by including the subgrantee’s costs in the grant agreement segment open at the time
the subgrantee’s bill was received.

        The subgrantees, however, did not bill the Department on a timely basis. This
resulted in costs being incurred by the subgrantee prior to the timeframe covered by the
grant agreement segment to which the Department subsequently billed the FWS for the
costs. In some instances, the costs were incurred by the subgrantee as much as 23 months
prior to the billing of the costs to a grant agreement. The Department did not have
specific FWS approval to charge these out-of-period costs to the grant agreement
segments that were charged.

        The draft report recommended that the Department (1) reimburse the FWS the
Federal share of the out-of-period subgrantee costs and (2) develop and implement
written policies and procedures that include adequate internal controls to screen out-of-
period costs from future requests for reimbursement, thereby ensuring compliance with
the provisions of 50 CFR 80.15.

Department’s Response

        The Department disagreed with the recommendation. In its response, the
Department stated that the costs were not out of period because the Department incurred
the costs in the period in which it paid them. In addition, the Department provided a
detailed response that described why the work was done in one period and paid for in
another period and it took the position that costs were incurred when the subgrantee
invoiced the Department.

Office of Inspector General Comments

       The deciding factor about which grant to charge a cost to should not be when the
subgrantee invoices the grantee or when the grantee reimburses the subgrantee. It should
be when the service is rendered or the work is performed by the subgrantee. Even though
the Department incurred the costs in the period in which it paid them, it should be
recognizing the obligation to pay for the costs when the service is provided or the work is
substantially completed by the subgrantees.

        FWS Region 2 officials stated that the standard operating procedure is that no
more than one segment of a grant should be open at a time and that incomplete activities
and associated fiscal transactions are routinely carried forward into the next segment for
payment purposes. We do not agree with this procedure because the grant segment
period during which the work is done should be the grant segment that is charged. In the
interests of better cash management, the grant segment under which the work is done
could be left open (the grant period of performance could be amended to extend the time
period to the date when all subgrantees are able to submit their invoices). This would
require that the FWS standard operating procedure regarding no more than one segment
of a grant be open at a time be changed.



                                             9
Recommendation

We recommend that the FWS:

       1. Resolve the $337,393 (Federal share) in out-of-period costs.

       2. Provide guidance to the Department on accounting for and reporting costs
incurred by subgrantees to ensure that costs are charged to the proper grant segment.

2. Duplicate Match of State Share. We questioned costs of $206,000 (Federal share)
because the subgrantee apparently used the same costs as its matching share on two
different Federal grants. In accordance with the provisions of 43 CFR 12.64(b)(3), costs
counted toward satisfying the cost sharing or matching requirement of one Federal grant
agreement cannot be counted toward satisfying the cost sharing or matching requirement
of another Federal grant agreement or any other award of Federal funds. Questioned
costs relate to the following grant agreements:

                                                                      Federal Share
        Grant                      Subgrantee                           Amount
      F-45-D-12     Pauls Valley Municipal Authority                       $100,000
      F-45-D-13     Pottawatomie County Development Authority                106,000
                                         Total                               $206,000

        a. Pauls Valley Municipal Authority - $100,000. In September 1994, Pauls
Valley Municipal Authority entered into an agreement with the U.S. Department of
Agriculture, Soil Conservation Service (SCS), to construct “recreational facilities” at the
R.C. Longmire Lake. The SCS and Pauls Valley each agreed to fund 50 percent of the
total cost, originally estimated to be $900,000, but later changed to $1,060,000. The
project was completed in two phases. The total cost of Phase 2 was $803,252, including
$15,880 for the cost of showers that Pauls Valley agreed to fund at 100 percent. The SCS
paid $393,686, its 50 percent share of the adjusted total costs ($803,252 minus $15,880
equals $787,372; $787,372 divided by 2 equals $393,686), and Pauls Valley paid the
remaining $409,566 (matching share of $393,686 plus $15,880).

         In April 1996, Pauls Valley entered into a cooperative agreement with the
Department for construction of boat parking areas, boating access roads, and restroom
facilities at the Lake. The cost estimate for this work was $400,000, with the
Department’s share being $100,000 (25 percent). The Department reimbursed Pauls
Valley for the amount requested ($100,000). In turn, the Department claimed the
$100,000 cost under grant F-45-D-12 and was reimbursed by the FWS for that amount.
It appears, however, that this work and related costs were also included under Phase 2 of
Pauls Valley’s agreement with the SCS. Accordingly, we are questioning the entire
$100,000 reimbursed to the Department by FWS under grant F-45-D-12.



                                            10
       b. Pottawatomie County Development Authority - $106,000. In June 1996, the
Pottawatomie County Development Authority entered into a subgrant with the
Department for construction of restrooms, boat docks and parking facilities at North Deer
Creek Reservoir. The total estimated cost of the project was $338,411. The Authority
agreed to fund 25 percent and the Department agreed to fund 75 percent of the project
costs.

        In April 1997, the Authority entered into an agreement with the U.S. Department
of Agriculture, Natural Resources Conservation Service (NRCS), to construct
recreational facilities, including roads and parking lots at the Reservoir. The total
estimated cost of the project was $842,965. The agreement stated that the Authority
would fund the first $106,000 associated with asphalt and concrete costs, and the costs
above $106,000 would be shared equally by NRCS and the Authority.

        The only documentation in the working papers regarding the costs incurred under
either agreement was Invoice No. 3 from the contractor. The invoice showed that NRCS
paid the contractor $556,534, and requested payment of $331,267 from the Authority
($106,000 plus $225,267, its 50 percent share of the total costs in excess of $106,000).
The Authority paid the bill and requested reimbursement from the Department of
$106,000 under the subgrant. The Department paid the Authority for the amount
requested. In turn, the Department requested and received reimbursement from FWS of
$106,000 under grant F-45-D-13.

        Considering the transactions involving Invoice No. 3 that occurred among the
three parties involved in this project (the Department, NRCS, and the Authority), it
appears that the $106,000 the Authority received under the FWS grant were for costs that
were part of the Authority’s cost sharing responsibilities under its agreement with NRCS.
Therefore, in accordance with the provisions of 43 CFR 12.64(b)(3) and OMB Circular
A-87, Attachment A, part C.1.h, it appears that these costs are not be allowable under
grant F-45-D-13. However, a full accounting of the costs incurred under these two
agreements is needed to determine the eligibility of these costs. Specifically, Invoice No.
3 indicated that additional costs of $233,000 had been paid under prior invoices and that
the work was only 94 percent completed, indicating that further costs may have been
incurred. There was no information indicating how these costs may have been shared
among the three parties. Therefore, we consider the entire $106,000 as unsupported
costs. A full accounting of the costs incurred under the two agreements is needed to
resolve this issue

        The draft report recommended that the Department (1) reimburse the FWS the
Federal share of the subgrantee duplicate match costs3 and (2) develop and implement
written policies and procedures that include adequate internal controls that ensure
reimbursement is not made to subgrantees for expenditures that are being included as
matching costs on more than one grant.


3
 The draft report questioned $96,030 on the Pauls Valley project and $53,212 on the Pottawatomie County
project. Based on our review, we have revised those amounts to $100,000 and $106,000, respectively.


                                                  11
Department’s Response

        The Department did not agree that it violated the duplicate match prohibition. It
stated that both Federal Government parties were aware of what each was doing, and that
they acceded to each other’s participation in the activities.

Office of Inspector General Comments

       As a result of the Department’s response and our review of the issue and the
supporting working papers, we revised the recommendation regarding reimbursement to
the FWS.

Recommendation

We recommend that the FWS:

       1. Resolve the questioned costs of $100,000 (Federal share) related to the costs
claimed by the Department for work performed by its subgrantee, the Pauls Valley
Municipal Authority under grant F-45-D-12.

        2. Resolve the unsupported costs of $106,000 (Federal share) related to the costs
claimed by the Department for work performed by its subgrantee, the Pottawatomie
County Development Authority under grant F-45-D-13 by requesting a full accounting of
the total costs incurred for the project at the North Deer Creek Reservoir by the Natural
Resources Conservation Service and the Authority and determine whether any of the
costs incurred by the Authority are eligible for Federal Aid participation.

3. Out-of-Period Department Costs. The draft report identified out-of-period costs of
$84,540 (Federal share) that were incurred prior to the effective date of the grant
agreement segment charged. We reviewed the claims and the supporting invoices in the
working papers and found one claim for a Federal share of $2,057 that was for services
provided within the grant’s period of performance. This reduced the questioned costs to
a Federal share of $82,483.

        In accordance with the provisions of 50 CFR 80.15(b), costs incurred prior to the
effective date of the grant agreement are allowable only when specifically provided for in
project agreements. There were no such provisions in the grant agreements.




                                            12
       The Federal share of questioned costs by grant are as follows:

                                        Cost            Total    Federal Share
                                      Incurred Claim   Amount      Amount
     Grant      Period of Performance   Date   Number Questioned Questioned
F-45-D-13        03/01/98 - 02/28/99      2/03/98     828         $86,357        $64,768
F-45-D-13        03/01/98 - 02/28/99      2/25/98     828           5,439          4,079
               Totals for F-45-D-13                               $91,796        $68,847

F-43-D-12         01/01/97 - 12/31/97     6/30/96    12514            785             589
F-44-D-12         01/0197 - 12/31/97      6/30/96    12514            785             589
W-143-D-11        07/01/97 - 06/30/98     6/26/97     1521          6,980           5,235
W-144-M-3         07/01/96 - 06/30/97     8/07/97     3432          9,630           7,223
         Total Questioned Costs and Federal Share                $109,976        $82,483



       The draft report recommended that the Department (1) reimburse the FWS for the
Federal share of the out-of-period claimed costs and (2) develop written policies and
procedures that include adequate internal controls designed to screen out those costs that
were incurred prior or subsequent to the performance period of the grant agreement
segment being charged.

Department’s Response

        The Department agreed with the report’s conclusions on three of the four
questioned claims. In addition, the Department stated that internal control procedures
have been changed to require the project leader and the grants assistant to review each
claim for proper coding prior to submitting the claim for payment. The Department did
not indicate whether the new internal control procedures have been issued as a written
document.

        The Department did not agree that claim 828 was an out-of-period cost. It stated
that the claim was for expenses incurred for its boating access facilities development
program, a program that has been in Oklahoma since 1986. The Department referred to
the grant as F-45-D, which does not identify a segment number. Segment numbers
identify the period of performance, among other things. For the other three claim
numbers and associated questioned costs, the Department agreed with the findings and
proposed to offset the questioned costs with excess costs that it incurred over the grant
agreement matching requirements.




                                            13
Office of Inspector General Comments

         Regarding claim 828, the costs of renovating boat ramps, parking facilities, and
road access were incurred on February 3, 1998. Grant F-45-D-13, which had a period of
performance from March 1, 1998 through February 28, 1999, was for boating access
facilities development and maintenance. Grant F-45-D-12 was a boating access facilities
development and maintenance grant for the period from March 1, 1997 through February
28, 1998. The Department claimed the cost under grant F-45-D-13, not grant F-45-D-12.
The working papers did not indicate whether claim 828 would have been an allowable
cost if it had been claimed under grant F-45-D-12. We noted that Grant F-45-D-12 had
sufficient available funds at the end of the grant period to cover these costs.

        Regarding the Department’s proposal to use costs incurred in excess of the
matching requirements to offset questioned costs, FWS has advised that this would be
acceptable if the excess costs were incurred for the same grant number and the excess
costs had been reported on the Department’s Financial Status Reports, SF-269s.
However, the use of excess costs incurred under one grant to offset questioned costs of
another grant is unallowable. Accordingly, the Department’s proposal to offset
questioned costs with excess allowable costs under grants W-143-D-11 and W-144-M-3
may be appropriate subject to FWS approval if there are excess allowable costs that equal
or exceed the total amount of out-of-period costs for each grant. The Department’s
proposal to offset the $589 in questioned costs under grant F-44-D-12 with excess
allowable costs under grant F-44-D-11 is inappropriate.

Recommendation

       We recommend that the FWS resolve the $82,483 (Federal share) of out-of-period
questioned costs.

4. Costs In Excess of Agreement. Costs of $2,445 were questioned because the amount
paid by the Department to the Oklahoma Division of State Parks (ODSP) was greater
than the amount agreed to by both parties. The Department and the ODSP entered into a
cooperative agreement dated January 17, 1996 to remodel and repair boat docks at Lake
Thunderbird. The agreement identified total costs to be $30,000 with the Department’s
share being 75 percent, or $22,500. The total actual cost of this effort was $33,260. The
Department reimbursed the ODSP 75 percent of the total actual costs, or $24,945. The
Department received reimbursement for these costs through grant F-45-D-12. The
$2,445 is the difference between the amount actually reimbursed by the Department,
$24,945, and the maximum amount identified in the agreement, $22,500.

       The draft report recommended that the Department reimburse the FWS $2,445,
which represented the Federal share of the costs in excess of the Department’s agreement
with the ODSP. In addition, the report recommended that the Department develop and
implement written policies and procedures that contain adequate internal controls to
ensure subgrantees are not paid more than the agreed upon amount.




                                           14
Department’s Response

       The Department disagreed with this finding. It stated that a change order to
increase the total reimbursable amount to $25,849 was issued on October 14, 1996.

Office of Inspector General Comments

       The grant’s period of performance was from March 1, 1997, to February 28,
1998, which was subsequent to the change order date cited in the Department’s response.
Furthermore, the invoice that cited the cooperative agreement under which the ODSP
claimed $24,945 did not refer to the change order. The amount questioned could be
considered allowable if the Department can provide a copy of a valid change order.

Recommendation

        We recommend that the FWS resolve the $2,445 (Federal share) of questioned
costs that were in excess of the amount authorized in the Department’s cooperative
agreement with the Division of State Parks.

5. Ineligible Vehicle Costs. The Department claimed costs of $2,428 (Federal share) for
unleaded fuel and tires. However, these types of costs were already provided for in the
mileage rates for vehicles that were charged to the grants and reimbursed by Federal Aid
funds. That is, it was the Department’s practice to charge vehicle costs based on a
computed mileage rate which included the costs of tires and fuel. However, the
Department directly charged fuel and tires costs to Federal Aid grants in addition to the
computed mileage rate. This practice resulted in the duplicate recovery of costs which
were claimed and questioned on the grants that follow:

                              Claim       Questioned          Federal Share of
             Grant           Number         Costs             Questioned Costs
        W-139-M-13              4981          $298                    $224
        W-139-M-13             21943           330                     248
                 Subtotal                     $628                    $472
        W-139-M-14             20241          $334                    $251
        W-140-M-13              6375          $365                    $274
        W-140-M-13              8200           616                     462
                 Subtotal                     $981                    $736
        W-140-M-14              5894          $372                    $279
        W-144-M-3               6669          $545                    $409
        W-144-M-3                719           346                     260
                 Subtotal                     $891                    $669
        F-50-R-4               22533           $28                     $21
                               Totals       $3,234                  $2,428


                                           15
        The draft report recommended that the Department (1) reimburse the FWS $2,428
which represented the Federal share of the ineligible direct charges for tires and fuel and
(2) develop and implement adequate internal controls to ensure that only eligible vehicle
costs are assigned to Federal Aid grants on a consistent basis.

Department’s Response

        The Department stated that it was likely that most of the fuel was used for
tractors, ATV’s, chainsaws, generators, and water pumps which were equipment items
for which fuel costs were not included in the indirect cost pool. The Department also
stated that because it did not keep fuel usage logs, which could prove this statement, it
would not dispute the finding. The Department proposed to use costs incurred in excess
of the matching requirement under grants W-139-M-14 and F-44-D-11 to offset the
questioned costs.

Office of Inspector General Comments

        We do not agree with this proposed resolution regarding the $2,428
reimbursement. To properly resolve these costs, the Department should determine if
those grants to which the costs were charged had excess allowable costs that were
reported on the Financial Status Reports, SF-269s. Subject to FWS approval, the excess
allowable costs for each grant may be used to offset the portion of the $2,428 allocable to
that grant. Any remaining portion of the $2,428 should be reimbursed to FWS. The
Department’s proposed resolution to use excess allowable costs from grant W-139-M-14
may be allowable if the grant has excess costs that were reported on its SF-269 after
consideration of the other questioned costs in this report that relate to that grant. Using
excess costs from grant F-44-D-11 to offset the remaining portion of the $2,428 would be
contrary to Attachment B, Section 42 of OMB Circular A-87, which states, “Any excess
costs over the Federal contribution under one award agreement are unallowable under
other award agreements.”

Recommendation

We recommend that the FWS resolve the $2,428 (Federal share) of questioned vehicle
costs.

6. Proceeds from the Sale of a House. Costs of $3,001 were questioned because the
Department did not apply proceeds from the sale of a house to the cost of the new home
as required by the conditions of grant F-42-D-6. The Federal Aid share of these
questioned costs is $2,251.

        As part of grant F-42-D-6, Fish Hatchery Renovation, project 2, paragraph D,
Approach, the Department agreed to “sell existing house to public bidder to recover
partial cost of new home.” The existing home was sold for $3,001. The Department did
not credit the grant agreement for this amount as required by the terms and conditions of
the grant.



                                            16
       The draft report recommended that the Department (1) compensate the FWS for
$2,251, which represented the Federal share of the proceeds from the sale of the existing
residence and (2) develop written policies and procedures that contain adequate internal
controls to ensure compliance with the terms and conditions of all Federal Aid grant
agreements.

Department’s Response

        The Department agreed with the finding and recommendations. It proposed to
offset the questioned costs with excess allowable costs incurred under the grant.

Office of Inspector General Comments

        This proposed resolution of the recommendation is acceptable, subject to FWS
approval, if excess costs totaling at least $3,001 were reported on the SF-269 for this
grant, and the excess allowable costs relating to this grant have not been used to offset
other questioned costs.

Recommendation

      We recommend that the FWS resolve the $2,251 (Federal share) in unreported
income from the sale of the existing house.

D. Accounting System
        The Department’s accounting system was not adequate for accumulating and
reporting expenditures of fishing and hunting license revenues. Also, as discussed in the
“Out-of-Period” findings in this report, the Department did not have adequate controls to
ensure that costs were recorded and reported under the grant segment period in which
they were incurred.

        The Department operated a subsidiary accounting system to record expenditures,
and classify and allocate costs to program accounts. The Department’s system interfaced
with the State's accounting system for recording disbursements and revenue. Basically,
the Department’s subsidiary system was a copy of the state’s accounting system modified
to add information pertaining to Federal Aid grants. The Department’s system consisted
of an operating fund (Fund 200) that accounted for all financial resources of the
Department and a capital projects fund that accounted for the acquisition of land and
construction of major capital projects. Fund 200 included license revenue, Federal Aid
funds, interest earned on license revenues and revenues generated on grant supported
activities (restricted funds), and revenue from other sources such as the sale of non-
recreational hunting and fishing licenses, fines and penalties, motorboat taxes, pollution
damage assessments, and contributions (unrestricted funds). Fund 200 was not structured
to differentiate between restricted and unrestricted revenues. Once the revenues were
deposited into the fund they were commingled and it was not possible to discern whether
a particular expenditure was paid for with restricted or unrestricted funds. During fiscal


                                             17
years 1997 and 1998, Fund 200 consisted of approximately 98 percent restricted revenue
from various sources and 2 percent unrestricted revenue.

         The Code of Federal Regulation (50 CFR 80.4), Diversion of License Fees states
that revenue received from license fees paid by hunters and sport fishermen shall not be
diverted to purposes other than the administration of the state fish and wildlife agency.
Because the receipts and disbursements of restricted funds were not properly accounted
for, it could not be determined whether the Department was in compliance with this
provision or whether any restricted funds had been diverted.

        The working papers noted that the Department’s Law Division employees, whose
salaries were paid out of Fund 200, performed activities that were both related and
unrelated to the administration of the State’s fish and wildlife department. These
activities were not identified with any specificity on the employee time records nor could
they be identified by activity code in the labor recording system. Therefore, it could not
be determined whether restricted revenues were used to fund ineligible Law Division
activities.

        The draft report recommended that the Department establish subfunds within
Fund 200, structured in a manner as to separate restricted and unrestricted funds and
permit the tracing of expenditures to ensure that such funds have not been used for
unauthorized purposes. The draft report also recommended that the Department establish
specific activity codes within the Law Division to record time spent on various types of
law enforcement activities and responsibilities and that the Department provide training,
including guidance on the use and requirements for the law enforcement officers to
record their time using the activity codes.

Department’s Response

        The Department disagreed with the recommendations, stating that the accounting
system was adequate and tracked funds using approximately 200 revenue codes.
However, the Department also stated that it would work with the State Auditor’s office or
a consultant to develop methodology to allocate revenues to agency programs. The
Department also stated that the Law Division prepares a monthly activity report that
identifies daily activity and that it will establish a tracking system to account for time
spent on activities that are not eligible for Federal reimbursement. Comparing costs of
these activities with unrestricted revenues will eliminate the risk of using restricted
license revenues for ineligible activities.

Office of Inspector General Comments

       The response is adequate to resolve these recommendations.




                                            18
Recommendation

        We recommend that the FWS ensure that the Department has established an
adequate system and controls for accounting for license revenues.

E. Compliance with Grant Requirements
        The Department did not comply with specific Sport Fish and Wildlife Restoration
regulations related to grant compliance requirements. Specifically, the Department did
not submit adequate performance reports, submit amendments to grant agreements, and
identify program income on Financial Status Reports (FSRs).

1. Performance Reports. The Department did not submit adequate performance reports
upon completion of the grants. The Code of Federal Regulations (43 CFR Part
12.80(b)(2), Monitoring and Reporting Program Performance), state that a variety of
information is to be reported for each completed grant. This information includes a
comparison of actual accomplishments to the objectives established for the period, the
reasons for slippage if established objectives have not been met, and any additional
pertinent information that might be useful to the FWS. Performance reports for grants F-
45-D-11, F-45-D-12, W-82-R-27, W-138-M-14, W-140-M-13, W-140-M-14, W-141-M-
13, W-145-D-10, and W-143-D-11 did not explain why some of the work identified in
the grant agreement was not accomplished.

        The draft report recommended that, in all performance reports, the Department
identify the actual effort accomplished under the grants and provide detailed explanations
of why agreed-to effort had not been completed.

Department’s Response

       The Department disagreed with the recommendation. It stated that adequate
documentation is a matter for the FWS and the Department to mutually agree upon, not
the auditors.

Office of Inspector General Comments

        The FWS should ensure that the Department follows the requirements of the
regulations with regard to reporting the work accomplished under the grants.

2. Grant Amendments. The Department did not submit grant agreement amendments
when there was a change in the scope or objectives of grant agreement projects as
required by the provisions set forth in 43 CFR 12.70, Changes. The regulations state that,
“grantees or subgrantees must obtain prior approval of the awarding agency” when there
is “any revision of the scope or objectives of the project (regardless of whether there is an
associated budget revision requiring prior approval).”




                                             19
         The working papers demonstrated that the Department performed work that was
not identified in the project objectives of grants F-45-D-11, F-45-D-12, W-143-D-10 and
W-143-D-11 and did not submit amendments to the grant agreements requesting FWS
approval for these changes in the scope of work as required by the regulations. As a
result, the Department received reimbursement for work that was not part of the grant
agreement. The monetary impact associated with this issue could not be computed
because the costs associated with the unspecified project objectives were not accumulated
separately.

        The draft report recommended that the Department prepare and implement written
policies and procedures that ensure grant agreement amendments are submitted whenever
the scope of effort or objectives of a grant agreement are changed, as required by the
provisions of 43 CFR 12.70(d)(1).

Department’s Response

       The Department stated that such a determination was subjective and that
accomplishments were disclosed in the performance reports sent to the FWS. The
Department also stated that the auditors’ concern was more about project level
accounting than changes in the scope of the grant agreement.

Office of Inspector General Comments

        We agree that the finding was applicable to the projects within the grants. For
example, grants W-143-D-10 and W-143-D-11 required the Department to work on five
projects on each grant. If it worked on only four of the projects, or substituted another
project for one of the five, it ran the risk of not being reimbursed fully for the Federal
share of the costs, unless the FWS was made aware of the changes and approved them.
        Amending the grants to incorporate any changes to the scope of work will keep
both parties to the grant aware of the changes and ensure that the Department is eligible
for reimbursement for the work it accomplishes.

3. Program Income. The Department deducted program income from the total costs
incurred on grant F-46-D, segments 10 and 12, but did not identify the program income
on its Financial Status Report, SF-269, as required by 43 CFR 12.81(b)(1), Financial
Reporting. Failure to identify program income on the SF-269 could result in grants not
receiving proper credit for income earned. The draft report recommended that the
Department follow the instructions on the SF-269 form and identify all program income
when completing the form.

Department’s Response

       The Department stated that the omission of program income on the SF-269 for
grant F-46-D-10 and grant F-46-D-12 was an oversight.




                                            20
Office of Inspector General Comments

        The Department’s response is considered adequate to resolve this finding. No
further action is necessary.

Recommendations

       We recommend that the FWS:

       1. Determine if the documentation provided by the Department in its
performance reports is sufficient and in compliance with 43 CFR 12.80(b)(2). If not,
provide guidance to the Department on preparing its performance reports.

       2. Determine if the documentation provided by the Department regarding grant
amendments is adequate whenever the scope or objectives of a grant change during the
grant period.

F. In-Kind Contributions
        The regulations (43 CFR 12.64(b)(6)) state that, to the extent feasible, volunteer
services should be supported by the same methods that the Department uses to support
the allocability of its regular personnel costs. The Department, however, did not have
adequate policies and procedures to ensure proper identification, accumulation, and
reporting of eligible costs for in-kind contributions under FWS grants as required by the
regulation. The following deficiencies related to the Department’s supporting
documentation for in-kind contributions:

         1. Volunteer Instructors. Descriptions of classes taught, clinics held, and the
locations were generally not recorded on Volunteer Time Sheets. In addition, the
descriptions that were provided were usually too brief to discern the location and type of
work performed by the volunteer. The draft report recommended that the Department (1)
prepare written policies and procedures that contain adequate internal controls to ensure
that all necessary information is included on Volunteer Time Sheets and (2) provide
training to all volunteer instructors on the appropriate procedures to follow to account for
their time while working as a volunteer instructor and provide refresher training as
necessary.

        2. Inmate Labor. The Department used donated inmate labor as the State
matching share. However, inmate time records were not completed and signed by each
inmate. The working papers disclosed that in one situation, an inmate’s time record was
partially completed, then copied for use to account for each of the four inmates’ time for
the period. The time records did not include the names or other unique identification of
the inmates or the supervisor’s signature. The draft report recommended that the
Department prepare written policies and procedures that contain adequate internal
controls to ensure that the time records for volunteer labor reflect the required




                                             21
information and signature of the individuals performing the work and the approval of the
cognizant supervisor.

Department’s Response

        The Department stated that written procedures for in-kind contributions have been
developed and implemented. In addition, all new volunteers must attend training, and
only time sheets from certified instructors are now accepted for in-kind contributions.

       The Department also stated that inmate labor is no longer used and that if it
decides to use inmate labor in the future, it will provide written procedures to the FWS
for inmate labor as part of the grant proposal.

Office of Inspector General Comments

      The Department’s response adequately addresses the findings and
recommendations.

Recommendation

       We recommend that the FWS ensure that the procedures and time sheets for in-
kind labor costs are adequate.

        In accordance with the Departmental Manual, (360 DM 5.3), please provide us
with your written comments by December 9, 2002 regarding the questioned costs and
other issues discussed in this report. Copies of documentation related to the final
disposition of the questioned costs and other issues should be provided with your
response. If you have any questions regarding this report, please contact Gary Dail,
Federal Assistance Audit Coordinator, at 703-487-8032.

        This advisory report is intended solely for the use of grant officials of the U.S.
Fish and Wildlife Service, and is not intended for, and should not be used by, anyone
who is not cognizant of the procedures that were applied and who agreed to the
sufficiency of those procedures.


cc: Regional Director, Region 2
    U.S. Fish and Wildlife Service




                                              22
                                                                                                         APPENDIX 1
                                                                                                           Page 1 of 2

                 OKLAHOMA DEPARTMENT OF WILDLIFE CONSERVATION
                     FINANCIAL SUMMARY OF REVIEW COVERAGE
                     FISCAL YEARS ENDING JUNE 30, 1997 AND 1998

                                                                                                  Federal Share
   Grant                                                        Grant         Federal      Costs of Questioned
  Number                         Title                         Amount          Share      Claimed    Costs      Notes
                                 Federal Aid in Sport Fish Restoration Grants

F-5-C-32     Coordination                                         $70,666       $53,000      $81,030
F-5-C-33     Coordination                                          75,000        56,250       78,726
F-5-C-34     Coordination                                          75,000        56,250       82,004
F-41-R-18    Factors Influencing Pop                               98,667        74,000       98,667
F-41-R-19    Factors Influencing Pop                               92,000        69,000       92,000
F-41-R-20    Factors Influencing Pop                              117,333        88,000      117,240
F-42-D-6     Fish Hatchery Ren.                                 2,100,000     1,575,000    2,112,771     $2,251   (1)
F-43-D-11    State Fish Hatchery                                1,460,000     1,095,000    1,629,849
F-43-D-12    State Fish Hatchery                                1,565,000     1,173,750    1,555,326       589    (2)
F-43-D-13    State Fish Hatchery                                1,600,000     1,200,000    1,601,379
F-44-D-11    Fisheries Management                               1,650,000     1,237,500    1,824,374
F-44-D-12    Fisheries Management                               1,904,500     1,428,275    1,674,514        589   (2)
F-44-D-13    Fisheries Management                               1,906,667     1,430,000    1,955,172    148,422   (3)
F-45-D-11    Boating Access Fac.                                  533,333       400,000      296,607     70,343   (3)
F-45-D-12    Boating Access Fac.                                  800,000       600,000      651,707    132,694   (4)
F-45-D-13    Boating Access Fac.                                  800,000       600,000      637,971    263,226   (5)
F-46-D-10    Dev., Oper., & Maint. of Public Fishing Areas        490,308       367,731      404,782
F-46-D-11    Dev., Oper., & Maint. of Public Fishing Areas        466,000       349,500      384,559
F-46-D-12    Dev., Oper., & Maint. of Public Fishing Areas        460,000       345,000      419,961
F-47-E-9     Aquatic Resources Ed.                                285,000       213,750      290,336
F-47-E-10    Aquatic Resources Ed.                                330,000       247,500      321,051
F-47-E-11    Aquatic Resources Ed.                                588,800       441,600      323,703
F-50-R-3     Fish Research for OK                                 127,012        95,259      117,467
F-50-R-4     Fish Research for OK                                  75,600        56,700       56,178        21    (6)
F-50-R-5     Fish Research for OK                                  56,200        42,150       43,955
F-51-R-2     Approval of Drugs                                     20,000        15,000       20,000
F-51-R-3     Approval of Drugs                                     20,000        15,000       20,000
F-51-R-4     Approval of Drugs                                     10,000         7,500       10,000
                Subtotal                                     $17,777,086    $13,332,715 $16,901,329    $618,135

                                 Federal Aid in Wildlife Restoration Grants
W-12-C-36    Wildlife Program Cord.                              $65,000        $48,750     $76,168
W-12-C-37    Wildlife Program Cord.                               64,000         48,000      64,008
W-32-R-46    Migratory Bird Study                                 93,333         70,000     109,454
W-32-R-47    Migratory Bird Study                                100,000         75,000     114,168
W-32-R-48    Migratory Bird Study                                100,000         75,000      89,887
W-80-R-35    Big Game Investigation                              260,000        195,000     272,985
W-80-R-36    Big Game Investigation                              267,667        181,830     242,440
W-80-R-37    Big Game Investigation                              286,667        215,000     286,891
W-82-R-35    Upland Game Inv.                                    260,000        195,000     279,024
W-82-R-36    Upland Game Inv.                                    267,667        200,750      257,135
W-82-R-37    Upland Game Inv.                                    280,000        210,000     285,581
W-110-S-23   Hunter Ed. Program                                  253,464        190,098     206,240
W-110-S-24   Hunter Ed. Program                                  280,000        189,807     253,076




                                                                23
                                                                                             APPENDIX 1
                                                                                               Page 2 of 2

                 OKLAHOMA DEPARTMENT OF WILDLIFE CONSERVATION
                     FINANCIAL SUMMARY OF REVIEW COVERAGE
                     FISCAL YEARS ENDING JUNE 30, 1997 AND 1998

                                                                                         Federal Share
  Grant                                                 Grant       Federal       Costs of Questioned
 Number                          Title                 Amount        Share       Claimed    Costs      Notes

W-110-S-25   Hunter Ed. Program                          $258,812    $172,772    $230,362
W-138-M-12   Central Region WMA                           720,000     540,000     789,131
W-138-M-13   Central Region WMA                           733,333     550,000     771,062
W-138-M-14   Central Region WMA                           706,667     530,000     757,700
W-139-M-12   NE Region WMA                                866,666     650,000   1,018,969
W-139-M-13   NE Region WMA                                934,212     725,000     939,825             $472       (6)
W-139-M-14   NE Region WMA                                826,667     620,000     910,215              251       (6)
W-140-M-12   SE Region WMA                                800,000     600,000     831,880
W-140-M-13   SE Region WMA                                900,000     675,000     906,799              736       (6)
W-140-M-14   SE Region WMA                                800,000     512,417     763,223              279       (6)
W-141-M-12   NW Region WMA                                350,000     262,500     439,399
W-141-M-13   NW Region WMA                                400,000     300,000     432,163
W-141-M-14   NW Region WMA                                366,667     274,319     365,758
W-143-D-9    Wetland/Waterfowl Development                717,416     399,551     532,734
W-143-D-10   Wetland/Waterfowl Development                484,896     363,672     545,064
W-143-D-11   Wetland/Waterfowl Development                400,000     300,000     458,974             5,235      (2)
W-144-M-2    SW Region WMA                                533,333     400,000     636,029
W-144-M-3    SW Region WMA                                533,333     400,000     616,511             7,892      (7)
W-144-M-4    SW Region WMA                                533,333     400,000     552,445
W-145-R-2    Eastern Wild Turkey                           56,000      42,000      56,000
W-145-R-3    Eastern Wild Turkey                           56,000      42,000      56,000
W-145-R-4    Eastern Wild Turkey                           28,000      21,000      28,000
             Subtotal                                 $14,583,133 $10,674,466 $15,175,300           $14,865


             Sport Fish Restoration Grants            $17,777,086                                 $618,135
             Wildlife Restoration Grants               14,583,133                                   14,865
              Subtotal                                                                             633,000
             Other: Insurance Refund                                                               104,828       (8)
             Totals                                   $32,360,219                                 $737,828

     Explanatory Notes

     (1). Proceeds from the Sale of a House (Finding C.6)
     (2). Out-of-period Department costs (Finding C.3)
     (3). Out-of-period subgrantee costs (Finding C.1)
     (4). Out-of period subgrantee costs ($30,249) and subgrantee use of same costs for matching two different
     Federal grants ($100,000), and costs exceeding the agreement amount ($2,445) (Findings C.1, C.2, and C.4,
     respectively)
     (5). Out-of-period subgrantee costs ($88,379), subgrantee’s use of the same costs for matching two
     different Federal grants ($106,000), and out-of-period Department costs ($68,847) (Findings C.1, C.2, and
     C.3, respectively)
     (6). Ineligible vehicle costs (Finding C.5)
      (7). Out-of-period Department costs ($7,223) and ineligible vehicle costs ($669) (Findings C.3 and C.5,
     respectively
     (8). Use of hunting and fishing license revenues – refund due on health insurance premium payments. This
     amount could not be identified with specific Federal Aid grants. (Finding A)




                                                        24
                                                                                                   APPENDIX 2

                      SCHEDULE OF UNREPORTED PROGRAM INCOME AND
                         INCOME FROM THE SALE OF REAL PROPERTY
                                FISCAL YEARS 1997 AND 1998

    Income Type               W-138-M* W-139-M* W-140-M* W-141-M* W-144-M**                                Total
Timber Sales
        FY1997                                                 $2,399                                      $2,399
        FY1998                                                197,410                                     197,410
                      Total                                  $199,809                                    $199,809

Tower Leases
        FY1997
        FY1998                                $3,150                                                       $3,150
                      Total                   $3,150                                                       $3,150

Grazing Leases
        FY1997                    $4,119     $47,853           $5,173    $135,569        $50,725         $243,439
        FY1998                      720       60,754           23,548      81,992        116,206          283,220
                      Total       $4,839    $108,607          $28,721    $217,561       $166,931         $526,659

Agricultural Leases
        FY1997                  $108,310    $110,792           $7,818     $43,350         $6,371         $276,641
        FY1998                   145,131     132,928           13,384      21,587          5,852          318,882
                      Total     $253,441    $243,720          $21,202     $64,937        $12,223         $595,523

Oil & Gas Production
        FY1997                     $182        $(181)        $122,033      $2,892           $280         $125,206
        FY1998                      121                       107,475       2,423             50          110,069
                      Total        $303        $(181)        $229,508      $5,315           $330         $235,275

Oil & Gas Damages
        FY1997                                  $693          $21,853                        $50          $22,596
        FY1998                    $5,978         300            4,925     $12,720          3,250           27,173
                      Total       $5,978        $993          $26,778     $12,720         $3,300          $49,769

Oil & Gas Leases
        FY1997
        FY1998                                                   $50         $700                           $750
                      Total                                      $50         $700                           $750


      Total FY1997              $112,611    $159,157         $159,276    $181,811        $57,426         $670,281
      Total FY1998               151,950     197,132          346,792     119,422        125,358          940,654
   Total FYs97&98               $264,561    $356,289         $506,068    $301,233       $182,784      $1,610,935


* - The segment number for fiscal year 1997 grants was 13 and for fiscal year 1998 grants was 14.
** - The segment number for the fiscal year 1997 grant was 3 and for the fiscal year 1998 grant was 4.



                                                        25
                                                                            APPENDIX 3
                                                                              Page 1 of 5


                             MANAGEMENT ISSUES

        The working papers indicated that the Department’s systems and related internal
controls for labor charges and drawdowns of Federal Aid funds, its required assent
legislation, and its posting of Federal Aid logos were adequate for Federal Aid
participation. However, the working papers identified the following management issues
that the Oklahoma Department of Conservation and the Fish and Wildlife Service need to
address.

A. Purchasing System
        The Department’s purchasing system and related internal controls in effect in
fiscal years 1997 and 1998 were adequate for the acquisition of goods and services on
Federal Aid grants. However, the Department’s records retention policy for purchasing
records was not in compliance with 43 CFR 12.82(c), which states, “… the retention
period starts on the day the grantee or subgrantee submits to the awarding agency its final
expenditure report. If an expenditure report has been waived, the retention period starts
the day the report would have been due.” Part 12.82(b) of the regulation identifies the
retention period as 3 years from the starting date specified in paragraph (c). Part
12.81(b)(4) requires that the grantee submit the final expenditure report within 90 days
after the grant year. The Department’s written policy, however, states that the
Department shall retain records for 3 years following the purchase date, which in effect
results in a retention period that could end sooner than required by the Federal
regulations.

        The draft report recommended that the Department amend its written policies and
procedures to reflect a beginning date for the retention of records period that complies
with the provisions of 43 CFR 12.82(c). The Department’s response to the draft report
stated that the purchasing policy on the retention of records will be modified to comply
with the requirements of the regulation.

B. Asset Management System
        The Department’s overall asset management system was adequate for the
identification and tracking of assets acquired with Federal Aid funds. However, the
following deficiency with the Department’s asset management system was identified.

        In accordance with Oklahoma Property Accounting Policy F-6, a physical
inventory of assets should be taken by the Inventory Coordinator (Property Manager), or
an individual may be designated to assist in this effort. The Department’s practice was to
designate the supervisor of the employee that had custody of the assets to physically
verify the existence of the assets. However, neither the Department supervisors nor their
employees adequately inspected the assets prior to initialing the asset inspection annual
memo signifying the assets had been inspected and inventoried. Failure to follow the



                                            26
                                                                             APPENDIX 3
                                                                               Page 2 of 5


Department’s established practice could result in assets that are in need of repair or
maintenance or that have been stolen or misplaced to go undetected. In addition, the
working papers concluded that the requirement that the employees’ immediate supervisor
perform the inventory verification may not be the best internal control.

       The draft report recommended that a designee, independent of the employee or
the employee’s supervisor, perform the asset inspection and verification, attesting to the
existence and condition of assets in the custody of the employee.

        In its response to the draft report, the Department disagreed with the
recommendation, stating that it felt that its policy was adequate. The Department added,
however, that internal controls would be put in place and monitored to ensure compliance
with the current policy. We agree with the audit agency that having a person independent
of the employee and his supervisor perform the asset verification would provide a better
management control over the Department’s assets.

C. Inadequate Enforcement of Mineral Agreements
       The Department did not adequately enforce the mineral exploration and
production agreements it has with gas and oil operators as they relate to road
maintenance. As part of those agreements, the operators agreed to pay a portion of the
annual maintenance costs of the Wildlife Management Area roads they used during the
exploration and production operations. The fee was to be assessed annually by the
Department and was to be prorated on the basis of use by the operator.

        The Department did not assess an annual fee and collect the costs of road
maintenance from the oil and gas operators. The maintenance costs were paid for with
Federal Aid funds even though the maintenance needs resulted from the use of the roads
by the operators’ trucks. During the audit, the Department acknowledged the problem
and stated that an effort was being made to correct it.

        The draft report recommended that the Department enforce the requirements in
the mineral agreements to ensure that Federal Aid funds were not being used to fund road
repairs caused by gas and oil operators.

        The Department’s response to the draft report did not concur with the finding,
stating that the finding was based on one site visit to the James Collins Wildlife
Management Area, which has 80 miles of roads, 70 that are open to the public. The
response also stated that oil and gas operators built the roads in the James Collins
Wildlife Management Area, the operators allow public access to the roads, and they
participate in the repair and maintenance of the roads. The Department stated that it
expends a minimal amount for road maintenance. In other areas, multiple oil and gas
operators use the roads and they continue to build new roads each year. Some roads in
wildlife management areas are county roads and are maintained by the counties. The
Department stated that these facts “confound” the implementation of a strict and clear


                                            27
                                                                                  APPENDIX 3
                                                                                    Page 3 of 5


policy on who should pay for road repair and maintenance. However, the Department
stated that it provides for coordination with the oil and gas operators and county officials
to ensure that area roads are maintained. Finally, the Department stated that it would
implement an annual review by the wildlife division regional supervisor to ensure
compliance with the Surface Contract Agreement for Oil and Gas Operations. The
Department’s response provided additional information that we could not evaluate at the
time of our review.

D. Inadequate Enforcement of Cooperative Agreements
The Department entered into cooperative agreements with various municipalities
throughout the State for the construction of boat access facilities on lakes owned by the
municipalities. As part of the cooperative agreements between the Department and the
municipalities, the municipalities agreed to provide the funding for operation and
maintenance of the facility for the life of the asset. The Department, through Boating
Access grant agreements under the Sport Fish Restoration Act, provided partial funding
for these facilities. During their site visits of these facilities, the auditors identified the
following problems related to the municipalities’ compliance with the cooperative
agreements.

1. The Department entered into a cooperative agreement with the City of Madill to
construct boating facilities at Carter Lake. It was noted that the handicapped accessible
restroom that was built at this site using Federal Aid funds did not have a handicapped
accessible approach. In addition, unsanitary conditions were noted in the restrooms,
indicating that the site was not adequately maintained in accordance with the cooperative
agreement. Partial funding for the construction of this facility was provided through
grant F-45-D-11.

2. The Department entered into a cooperative agreement with the City of Pauls Valley to
construct a handicapped accessible walkway and fishing dock. During a site visit to this
facility, it was noted that the parking area contained numerous large potholes and the
handicapped walkway to the fishing dock was in extreme disrepair, making it dangerous
for not only the handicapped, but also anyone attempting to get to the fishing dock.
Partial funding for the construction of this facility was provided through grant F-45-D-12.

3. The Department entered into a cooperative agreement with the City of Pawhuska to
develop a boat ramp, boat dock, restrooms, parking facilities and access road at Lake
Pawhuska. Although the work at this site was completed approximately 1½ years prior to
the time of the site visit, it was noted that there were potholes and other evidence that the
parking lot was rapidly deteriorating, indicating inadequate maintenance by the City.
Partial funding for the construction of this facility was provided through grant F-45-D-12.

        In summary, these municipalities did not adequately operate and maintain their
respective facilities in accordance with the provisions set forth in the cooperative
agreements. The lack of maintenance may have contributed to the deterioration of the


                                               28
                                                                             APPENDIX 3
                                                                               Page 4 of 5


assets and subjected the users to dangerous conditions. Therefore, the draft report
recommended that the Department establish a practice of inspecting these facilities
periodically to ensure that the municipalities continue to comply with the provisions of
the cooperative agreements.

        In its response to the draft report, the Department stated that it has developed
procedures and an annual inspection and monitoring form to reduce incidents of areas not
receiving proper care. With regard to the Lake Pawhuska parking lot, the Department
stated that the deterioration was caused by subsurface water flow under the site and that
drainage around the lot and the base has been improved and the parking lot has been
paved with asphalt.

E. Fish Stocking at Tinker Air Force Base (AFB)
        The Department annually stocked 500 channel catfish in a lake located on Tinker
AFB. A State fishing license was required for fishing on this lake, but the Department
acknowledged this was not well communicated to base personnel. Due to security issues,
the lake was open only to base personnel and their families and guests. Costs associated
with the stocking of these fish were charged to grant F-43-D, projects 1 and 3. According
to the stated approach for Project 3 of this grant, “Fish produced from the four state fish
hatcheries and from other fish hatcheries will be loaded, transported and released into
public waters of Oklahoma.” The stocking of fish at Tinker AFB results in stocking fish
in other than public waters, because the lake is not open to everyone who purchases an
Oklahoma State fishing license. Supporting this effort with Federal Aid or license
revenue may be considered a diversion in accordance with the provisions of 50 CFR 80.4.

        The draft report recommended that if the Department wishes to continue with this
stocking at Tinker AFB, the funding for costs associated with the effort should come
from other than Federal Aid or license revenue sources. In its response to the draft report,
the Department stated that the cost associated with this activity is minimal, the military
base is publicly owned, and the benefits equal or outweigh the cost because Tinker Air
Force Base provides at least two youth and family fishing events each year for personnel,
their families, and their guests.

       We suggest that the FWS develop a national policy on the use of Federal Aid
funds for stocking fish on military bases.

F. Identification of In-Kind Match
       The Department did not identify when in-kind match was being used as the State
share of grant costs on the Financial Status Reports. The draft report recommended that
the Department be required to identify when in-kind match is being used as the State’s
share of the grant agreement amount. In its response to the draft report, the Department




                                             29
                                                                              APPENDIX 3
                                                                                Page 5 of 5


stated that it is now and has been reporting in-kind match on the Financial Status Reports
for several years.

G. Indirect Cost Rates
        The Department did not ensure that the amount of State Central Service Costs
allocated to the Department in the approved cost allocation plan did not exceed 3 percent
of the State’s annual apportionment of Federal Aid funds as required by 50 CFR
80.15(d). Failure to monitor this requirement could result in excess Statewide Central
Service Costs being allocated to Federal Aid grants.

        The draft report recommended that the Department perform a calculation that
verifies that less than 3 percent of the Statewide Central Service Costs will be allocated to
Restoration Grants prior to submitting its indirect rate for approval. This calculation
should be included with the supporting documentation that is provided with the indirect
rate submission. In its response to the draft report, the Department stated that it would
monitor and provide documentation on compliance with the 3 percent rule within its
indirect cost proposals.




                                             30
                                                                                                             APPENDIX 4
                                                                                                               Page 1 of 2

                     CROSSWALK OF FINDINGS FROM THE DRAFT TO THE FINAL AUDIT REPORT


Findings Contained in the August 2001 Draft Report        Results of the OIG Review

QUANTIFIABLE ISSUES

1. Diversion of Restricted Funds.                         Included in this report as Finding A.

2. Program Income.                                        Included in this report as Finding B.

                                                          Excluded from this report because cumulative transfers did not
3. Project Level of Accounting.
                                                          exceed 10 percent of the total approved grant budget.

4. Out-of-Period Subgrantee Costs.                        Included in this report as Finding C.1.

5. Duplicate Match of State Share.                        Included in this report as Finding C.2.

6. Out-of-Period Questioned Transaction Costs.            Included in this report as Finding C.3.

                                                          Excluded from the report because the Department was eligible for
7. Inaccurate Computation of Federal Share.
                                                          reimbursement of costs up to the total amount of the grant.

8. Costs in Excess of Agreement.                          Included in this report as Finding C.4.

9. Ineligible Direct Charged Vehicle Costs.               Included in this report as Finding C.5.

10. Failure to Comply with Grant Requirements.            Included in this report as Finding C.6.




                                                     31
                                                                                                                        APPENDIX 4
                                                                                                                          Page 2 of 2

                            CROSSWASK OF FINDINGS FROM THE DRAFT TO THE FINAL AUDIT REPORT


COMPLIANCE ISSUES
1. Accounting System.                               Included in this report as Finding D.

2. Purchasing System.                               Included in this report in Appendix 3, as Management Issue A.

3. Labor System.                                    Included in this report as a positive Management Issue remark.

4. Grant Compliance.                                Included in this report as Finding E.
                                                    Excluded from this report because the questioned licenses produced revenue and thus
5. License Certification.
                                                    qualified for inclusion in the certification.
6. Drawdown of Federal Aid Funds.                   Included in this report as a positive Management Issue remark.

7. Assent Legislation.                              Included in this report as a positive Management Issue remark.

8. In-Kind Contributions.                           Included in this report as Finding F.

OTHER MATTERS TO BE REPORTED
1. Indirect Cost Rates.                             Included in this report in Appendix 3 as Management Issue G.

2. Asset Management System.                         Included in this report in Appendix 3 as Management Issue B.

3. Inadequate Enforcement of Mineral Agreements.    Included in this report in Appendix 3 as Management Issue C.

4. Inadequate Enforcement Cooperative Agreements.   Included in this report in Appendix 3 as Management Issue D.

5. Fish Stocking at Tinker Air Force Base.          Included in this report in Appendix 3 as Management Issue E.

6. Identification of In-Kind Match.                 Included in this report in Appendix 3 as Management Issue F.

7. Posting of Federal Aid Logos.                    Included in this report as a positive Management Issue remark.


                                                               32
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
